PO Box 158 | Deer Park, TX 77536 | 281.479.6651

APPLICATION AND SOLICITATION DISCLOSURE

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases
APR for Balance Transfers and Cash
Advances

How to Avoid Paying Interest on Purchases

For Credit Card Tips from the Consumer
Financial Protection Bureau

Standard fixed APR of 8.90% (Platinum), 10.90% (Gold),
12.00 (Standard) will apply based on your creditworthiness.

Standard fixed APR of 8.90% (Platinum), 10.90% (Gold),
12.00 (Standard) will apply based on your creditworthiness.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$0

Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction

$0
$0
Up to 1% of each transaction in U.S. dollars

Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Up to $20.00
Up to $20.00

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).”
Effective Date.
The information about the costs of the card described in this application is accurate as of September 1, 2016.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Statement Copy Fee
Document Copy Fee
Rush Fee
Card Replacement Fee

$20.00 or the amount of the required minimum payment, whichever
is less, if you are 11 or more days late in making a payment.
$20.00 or the amount of the required minimum payment, whichever
is less.
$3.00
$5.00
$55.00
$5.00

D42P40 (MXC402 CC

